<html>
<title> - A LOOK AT H.R. 1826, AND THE PUBLIC FINANCING OF CONGRESSIONAL CAMPAIGNS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





    A LOOK AT H.R. 1826, AND THE PUBLIC FINANCING OF CONGRESSIONAL 
                               CAMPAIGNS

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                 HELD IN WASHINGTON, DC, JULY 30, 2009

                               ----------                              

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html





    A LOOK AT H.R. 1826, AND THE PUBLIC FINANCING OF CONGRESSIONAL 
                               CAMPAIGNS

=======================================================================

                                7HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 30, 2009

                               __________

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                   COMMITTEE ON HOUSE ADMINISTRATION








                  U.S. GOVERNMENT PRINTING OFFICE
52-711                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                           Professional Staff
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
    A LOOK AT H.R. 1826, AND THE PUBLIC FINANCING OF CONGRESSIONAL 
                               CAMPAIGNS

                              ----------                              


                        THURSDAY, JULY 30, 2009

                  House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 11:04 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Davis of Alabama, Lungren and Harper.
    Staff Present: Jamie Fleet, Staff Director; Tom Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Joe Wallace, 
Legislative Clerk; Daniel Favarulo, Legislative Assistant, 
Elections; Greg Abbott, Professional Staff; Peter Schalestock, 
Minority Counsel; and Karin Moore, Minority Legislative 
Counsel.
    The Chairman. Good morning. I would like to call the 
Committee on House Administration hearing to order. Welcome, 
members of the committee, witnesses, and guests.
    Before I begin, I would like to recognize the men and women 
of the AOC and the CAO who have worked hard to renovate our 
hearing room and our conference room. They did terrific work, a 
good job, as they do every day, and we get to benefit from 
them. So we thank them for the job that they do.
    Today's hearing will focus on H.R. 1826, the Fair Elections 
Now Act, sponsored by my friend, John Larson of Connecticut. I 
want to thank my friend for bringing this legislation to the 
attention of the committee.
    The Fair Elections Now Act is voluntary and would provide 
qualified House candidates grants, matching funds, and vouchers 
to replace fundraising that relies on large donors and special 
interests. In exchange, participating candidates would agree to 
limit their fundraising to amounts raised by small-dollar 
donors.
    This legislation is based on the very successful model used 
in Arizona, Connecticut and Maine. These models have been 
credited with not only expanding the pool of candidates for 
office who otherwise could not compete in a money-driven 
election, the bill also encourages a more diverse pool of 
campaign contributors.
    As we witnessed in the 2008 general election, President 
Obama was able to mount a strong grassroots effort to attract 
small contributions from a wide range of supporters; from 
students to bus drivers to factory workers to doctors and 
lawyers. These new participants were able to use the Internet 
and other means to contribute small-donor amounts and finally 
have a voice in the electoral process.
    Our campaign finance laws are continually under 
examination. In September, the Supreme Court is scheduled to 
rehear arguments in the Citizens United case, going beyond the 
original challenge of the case. This committee will be paying 
close attention to the Court's ruling and to the Court's 
treatment of the over 100 years of judicial precedent in 
campaign finance law.
    We will now proceed to other Members' statements. I would 
like to recognize the Ranking Member Mr. Lungren for any 
opening statement that he may make.
    Mr. Lungren. Thank you very much, Mr. Chairman. I would 
like to thank you for calling today's hearing. I would also 
like to thank you for your courtesy in agreeing to invite two 
witnesses to represent the Minority viewpoint today.
    I think I am getting a little bit of an idea that when you 
welcome the gentleman who is the author of the bill and call 
him friend twice, I get an idea of maybe your position on the 
bill. So we will consider this.
    The Chairman. I really don't like him that much.
    Mr. Lungren. So as we consider this friendly bill, H.R. 
1826, I am, unfortunately, constrained to register my concern 
about the belief that taxpayers would be compelled to fund 
political campaigns.
    Historical record shows a striking absence of concrete 
support for public financing of campaigns. By concrete support, 
I refer to the number of taxpayers who now, on a volunteer 
basis, check the box on their tax return allowing the use of 
their taxes for public financing of Presidential campaigns and 
to the number of candidates who use public financing.
    In a report issued by the Congressional Research Service, 
the portion of taxpayers who check the public financing box has 
declined precipitously from the height of 28.7 percent in 1980 
to 8.3 percent in 2007. If any of us running for office had 
suffered that loss of support, we might check what we were 
doing and not believe that what we were doing is what the folks 
wanted. Save for a handful of exceptions, that percentage has 
declined each year.
    Moreover, candidates seem committed to going the private 
route as well. Few major Presidential candidates accept 
government financing for primary campaigns. In the 2008 
election, President Obama, whom you cited, opted to forego 
public financing in the general election after, of course, he 
publicly told us he was going to take it as long as he could 
get an agreement with the other side. John McCain came out and 
agreed to do it. But it didn't happen. That is despite the fact 
that the President cosponsored legislation similar to H.R. 1826 
when he was a Senator.
    The electoral process is a way for individuals to exercise 
their right to freedom of expression. It is unwarranted and 
undesirable to establish a government agency to decide for us 
how much campaigns should cost and how much candidates should 
receive to pay for them. We even have difficulty in this body 
determining what is allowed, when it is taxpayer-supported. 
What is allowed in terms of appropriate language to describe 
issues? And the last thing I want us to do is to have 
government telling us exactly what you can say or can't say.
    Part of politics is it is vigorous, it is robust. It ought 
to have some life to it. And sometimes we try and squeeze the 
life out of it in the pursuit of cleaning the system. And I am 
not sure we won't clean the system so much as we actually 
create uneven playing fields.
    So long as the Supreme Court is telling us that the First 
Amendment allows you to spend whatever amount you may spend on 
your own campaign--and they have done that--I do not understand 
why putting restrictions on the other side makes much sense.
    As I understand this legislation, there is no way it 
attempts to limit the other candidate. And so how do you have a 
system like that work? If the Supreme Court is going to 
continue to tell us that the First Amendment allows you to 
spend whatever money you want to run for office yourself, they 
ought to say you can spend whatever amount of money you want 
and support another candidate, so long as we know about it in a 
timely fashion.
    My good friend Jack Kemp, who left us this year--and he was 
a good friend--would have been a candidate for President of the 
United States in 1988, except he couldn't raise the money. If 
Steve Forbes had been able to contribute a portion of his 
fortune to Jack Kemp to run for office, Jack Kemp would have 
been the candidate, not Steve Forbes, in successive campaigns. 
With great due respect to Steve Forbes, he is not and never 
will be the candidate Jack Kemp was. They had similar views. 
But because of some peculiarity in the law we have, we say to 
Steve Forbes, who has great ideas but frankly is not a good 
candidate, or did not prove to be a good candidate, he can 
spend all the money he wants in the futile effort, but he can't 
use his First Amendment right to express his point of view by 
giving that amount of money to a candidate who would be a 
viable candidate. And I don't understand why, as long as we 
knew about the money--we knew about it early enough, everybody 
could make their judgments--why that wouldn't be a better way 
to go.
    So I think this legislation has true difficulty so long as 
the Supreme Court is going to continue in the position that the 
First Amendment as properly interpreted as they understand it 
allows you to spend whatever amount of money you want 
personally for your own campaign or for expression of your own 
views. But yet we say if you give it to somebody else who 
expresses those views better than you do, who basically would 
be a better candidate than you do, that somehow is a corruption 
of the system. I do not understand that contradiction.
    We will hear testimony that government funding schemes for 
campaigns do not result in a more accessible field for 
potential candidates. Neither is the number of viable 
candidates bolstered or the incumbency advantage substantially 
diminished. Furthermore, public financing of political 
campaigns is not proven to effect greater civic participation.
    In addition, I am disturbed by a press report quoting a 
supporter of this bill saying: These kinds of things are the 
necessary precursors to all the other things we want. I would 
like to know what those other things are.
    Apparently this bill is really intended to change the 
political playing field, perhaps to advantage one group or 
another, exactly the kind of partisan manipulation of election 
laws I hoped that this committee has always tried to avoid or 
will continue to try to avoid.
    Now, in my judgment, is not the time to find further ways 
to spend money that we do not have. My State of California is 
showing the rest of the world what can happen to this country. 
We used to say the only difference between the Federal 
Government and the State government is that the Federal 
Government can print money, and the States can't. My State 
proved that it could print money. They call them IOUs. After 2 
months, banks like the Bank of America said, We are not going 
to take them.
    Well, what if China, acting like the Bank of America, 
decides it is going to stop taking our debt? We are going to be 
in the same situation my home State is. We are accumulating 
unprecedented deficits, daily adding to a debt that will not be 
paid out of my pockets, probably won't even be paid out of my 
children's pockets. But I do have four grandchildren--actually 
six grandchildren, with my daughter's two stepchildren--and 
they are the ones that are going to have to pay this. The last 
thing the American people need is for this body to heap greater 
debt on the backs of our progeny for the sakes of political 
campaigns.
    I am going to put it on the record: I hate raising money 
for campaigns. The only two people I know who enjoyed it both 
went to prison. And I won't use their names. But I hate it. It 
is the least attractive part of this job. I can sell ideas, I 
can ask for support for others. I have a great deal of 
difficulty--and my campaign finance people are listening, and 
they would probably say don't say it--but I have a great deal 
of difficulty making the close on asking for money. It is the 
most difficult.
    And now we have in our campaign coverage by the reporters, 
they start to judge whether you are a good candidate, whether 
you have got good prospects depending on how much money you 
have got in your account. Read the stories now. They are about 
how much money did you have this quarter. So the very press 
that is telling us maybe this is what we ought to do is the 
very press that is making this part of the horse race, and that 
is a terrible tragedy.
    So I know very few politicians who love to raise money. As 
I say, the only two I do know went to prison where they could 
think about it for a while. But, having said that, it may be 
one of those things you have to do in order for this system to 
work.
    With that, I would like to thank each of the witnesses. I 
am looking forward to hearing what you have to say, and 
hopefully we can engage in some good questions and answers here 
today. I appreciate the Chairman's courtesy in allowing us two 
witnesses, as I said, and I thank you very much.
    The Chairman. I thank the gentleman.
    Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be brief so we 
can get to our witnesses.
    I would like to say that although I rarely cosponsor bills 
that come before the committee, I had to make an exception with 
this one. I think it is a smart approach and addresses a 
necessary topic.
    The only thing I would suggest in terms of potential 
changes is to have some kind of index. I remember when I first 
ran for office in 1980, and I got a $50 contribution, and I 
just thought that was such a large amount. That was a while 
ago. Things do change. And maybe it is better to write some 
kind of inflation index or something into the bill so we don't 
end up with a ridiculous result some number of years down the 
road.
    I am also from California, and none of us are very happy 
about how things turned out in the State budget--at least I am 
not. But I really think in many ways what has happened in 
California is more of a political problem than an economic 
problem. It is at least possible, in my mind, that if we had 
something like this funding in California, we wouldn't have had 
those rigid ideological battles that ended up dominating the 
end game.
    Yes, it is true that this is a voluntary system. It doesn't 
control all the candidates. But I think if this were in place, 
it would become the gold standard for what people should 
participate in, and there would be tremendous pressure for 
people to participate in it.
    Like Mr. Lungren, I hate to raise--all of us who run for 
office have to do it because you have to run a campaign, but I 
don't like it. If we had a different system, I think it would 
be good for the country.
    The checkoff system, it is true, it has declined. But I 
will tell you this: This system would be cheap at the price for 
the taxpayers, if it came to that. I don't think it would, but 
if it did, the taxpayers would get a bargain because they would 
own the government. They would own the government.
    So I look forward to hearing from the witnesses. And I 
thank you for recognizing me, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    I, unlike my two colleagues, enjoyed raising money until I 
heard your statement. I am going to rethink my position.
    Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    I welcome each of you here today for your testimony. I look 
forward to hearing what you have to say.
    I have to tell you that I believe that this is not a good 
use of taxpayer money. At a time we have already burdened our 
country with spending funds and things that we just don't have 
the money for, the price tag on this is not going to be a good 
one.
    I do think that the taxpayer boxes that have not been 
checked as much in recent years are an indication for the 
public's distaste for this. It is very difficult to raise 
money. It is part of our system, and it is probably very 
unpleasant to have to go to your friends and family and 
neighbors and do that.
    It was a situation, and certainly in my campaign, as a new 
Member, that I was in a hotly contested primary, and the other 
candidates--one had $1.3 million; one, $600,000; and I was able 
to raise $270,000, $20,000 of which was my money--or the bank's 
money. So it was hard to do. But with that we made the runoff 
and were successful. And it is part of this. And you appreciate 
those contributions that you get, but to ask people to give you 
money and then turn around and give you more money through 
their taxes is not the fair way to do it.
    We need complete transparency in the process. The way to do 
this should be that if someone wants to give you money, they 
should be allowed to do that with full disclosure so that you 
know who it was and what amount that was. We know folks that 
may not agree with that, but I don't think this is the time to 
burden our taxpayers with more money to be spent.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I actually think this concept is 
exactly what we need. I hate raising money. I hate it. I hate 
the fact that the general public thinks that every time I raise 
a dollar, I am being bought. I hate it. It is bad not just for 
me, it is bad for the system, it is bad for people's perception 
of government. And I don't think it levels the playing field, 
no matter what.
    It basically says for most working-class people, You will 
never be able to run for this office. There are always 
exceptions. I am one of them. But those are the exceptions.
    I do not like this House or the Senate being a place just 
for millionaires, and that is just what it is getting, one by 
one.
    I do not like the fact that every single time I have to 
pick up the phone, I feel dirty; not because I am doing 
anything wrong, it is an absolute requirement to be here and to 
get our messages out. And I want the system to be better.
    I do have some problems with the details of this bill, not 
a big deal, but the concept is so long overdue that anybody who 
wants to raise money, go right ahead. You enjoy doing it. That 
is not what I ran for office to do. I spend a ton of time--we 
all do. I would really much rather be reading a health-care 
bill and having that debate, which is fine, or any number of 
other things, than ever picking up the phone to anybody to beg 
them not for $100, but for thousands of dollars. I can't 
imagine anybody likes doing that. I can't imagine anybody wants 
to push this.
    I know this is not a perfect result, but I am more than 
happy to listen to alternatives to get us off of this terrible 
treadmill. But until we get a better idea, this is the only one 
that is left. I think it is a good idea. Again, details are 
details. We will work them out over time. But, other than that, 
we are doomed to the never-ending rat race to get the next 
dollar so we can get our message out so we can beat each other 
up. For me, I just want off it so we can all just get along.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Davis, opening statement.
    Mr. Davis of Alabama. I will be extremely brief. I am glad 
to see one of my favorite members of the caucus John Larson 
here.
    I will just make one observation at the beginning, Mr. 
Chairman, that all of us, I think, are concerned about the 
explosion of money in politics and the fact the numbers keep 
ratcheting up. I remember being a little kid who loved 
politics, reading that some candidates spent a million dollars 
trying to win a House race and thinking, What is the world 
coming to? Today that is a minor candidate getting heavily 
outspent.
    The only cautionary note that I bring to the table is I 
worry, just as much as I worry about money, about the rise of 
the extreme left and the rise of the extreme right. I fear any 
system which makes it easier for the extreme right and the 
extreme left and fringe candidates who come out of both those 
entities to think that they can use the public dime to command 
their space when, frankly, the quality of their ideas would 
entitle them to get to that space. So that is the cautionary 
note that I would put on the table.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    I would like to welcome our first panel of witnesses today. 
Representative Larson, serves as the United States 
Representative for the First Congressional District of 
Connecticut, which he represented since 1999. Congressman 
Larson is currently the Chairman of the Democratic Caucus and 
sits on the Ways and Means Committee. Representative Larson was 
the original cosponsor of the Fair Election Now Act. As the 
former Ranking Member of this committee, we welcome you back, 
and we look forward to your testimony.
    In 2008, Representative Pingree was elected to the United 
States House of Representatives for the First Congressional 
District of Maine. The Congresswoman sits on the Armed Services 
Committee as well as the House Rules Committee. Prior to her 
election in 2008, Congresswoman Pingree was CEO of Common 
Cause, a nonpartisan advocacy group committed to election 
reform, amongst other issues, and served as the Maine Senate 
majority leader from 1996 to 2000.
    Representative Walter Jones represents the Third 
Congressional District of North Carolina in the United States 
Congress. He has served in the House since being elected in 
1995, and currently sits on the Armed Services Committee and 
Financial Services Committee. Prior to being elected to 
Congress, Congressman Jones served as an elected official in 
the North Carolina General Assembly.
    I want to thank all Members for taking the time to be here. 
Without objection, we will have written statements made part of 
the record. We ask you to summarize your testimony in 5 
minutes. We know that that is really tough to do. I do allow 
leniency along the way and will not gavel you down if you don't 
go too far out. We are among friends, I think, from time to 
time.
    So I would like to start with our caucus Chairman Mr. John 
Larson.

STATEMENT OF THE HON. JOHN LARSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Larson. Thank you, Chairman Brady and Mr. Lungren, Mr. 
Harper, Ms. Lofgren, Mr. Capuano, Mr. Davis. We greatly 
appreciate this opportunity, and I think it instructive that in 
the opening remarks of the Members that you pretty much had the 
viewpoints and discussed the necessity why we believe that this 
legislation is important.
    I also think you see common ground right in the outset. I 
don't think that there is a one of you that enjoys the 
experience that we see most of our colleagues having to do on a 
daily basis, making the trek down to the various campaign 
offices to get on the phone and dial for dollars.
    I say that not because--as all of you have pointed out, 
that that is certainly the legal system under which we operate. 
It is not corrupt, but the system is corrosive. And it is that 
corrosion of the system that affects our democracy. And that is 
why we believe so strongly and why we are here today.
    I want to thank my cosponsors: Chellie Pingree, who is the 
former head of Common Cause in Maine and knows this issue 
backwards and forward; Walter Jones, thought by many to be, as 
I believe, the conscience of the House of Representatives. He 
does such an outstanding job; and Todd Platts, who couldn't be 
here today, but also a supporter of the bill, demonstrating its 
bipartisan position.
    I would also like to, for the record, Mr. Chairman, and I 
will just say this briefly, note the number of groups that are 
supporting this. I think it is instructive. 9 to 5, the 
National Association of Working Women; AFSCME; Americans for 
Campaign Reform; the Chesapeake Climate Action Network; Common 
Cause; Consumer Watchdog; Democracy 21; Friends of the Earth; 
Health Care Now; MoveOn.org; the National Council of the 
Churches of Christ in the USA; Public Campaign; Public Citizen; 
SEIU; the Sierra Club; and U.S. PIRG, amongst others; and more 
than 74 of our fellow Members in Congress who support this 
bill, as I do.
    All of my colleagues are principled people who would rather 
be doing just about anything else, as you bore witness to, than 
making fundraising calls, attending fundraising breakfasts, 
lunches, dinners, you name it.
    I don't believe that any Member of this body is unduly 
influenced by the contributions that are made. Members came to 
Congress, some perhaps with a bit of idealism, strong 
leadership skills, and a desire to represent their districts in 
the best way possible. In short, they came here to make a 
difference. However, in this age of multimillion-dollar 
congressional campaigns, even the most dedicated Member has no 
choice but to spend a great deal of his time or her time 
fundraising. Unfortunately, there is and will remain the 
perception that contributions mean influence.
    Mr. Davis raised the point no one wants to see this go 
tilted in one direction or the other. That is why the effort to 
make sure that we have bipartisan support. No one wants to see 
this tilt one way or the other. We want to see fair elections 
and open elections. That is why the system is completely 
voluntary, so that if one chooses, as Mr. Lungren has 
suggested, not to participate in that, it stands the Buckley v. 
Valeo test.
    This legislation stands that test. It has been vetted, and 
it stands that test for the very arguments that were presented 
by my colleagues. But it also provides the opportunity for 
people to participate, not in a frivolous manner, because you 
have to meet thresholds, and you have to make sure that you are 
raising the money first and foremost back in your own State, 
reacquainting Members more often than not with what goes on 
back in their own districts, serving the people we were sent to 
serve here by. And that is an issue that oftentimes gets 
overlooked.
    If you are spending more time in district raising your 
money there, and not here in Washington, D.C., within the 
Beltway, then aren't we creating, in many respects, a more 
representative, a more Republic, democratic society? I believe 
that that is the core of this legislation and why it is so 
important.
    In my home State of Connecticut, we addressed these 
problems. The inordinate amount of time spent fundraising was 
unfair, and the public perceptions of pay-to-play and the 
runaway cost of campaigns were the main reason why the State of 
Connecticut implemented a public financing system.
    On the second witness panel you will hear from Jeff 
Garfield, the executive director of the Connecticut State 
Elections Enforcement Commission, who will testify about the 
success of Connecticut's system. Seventy-five percent of the 
candidates for the general assembly participated in the 
program. Eighty-one percent of those are now serving in 
Connecticut's General Assembly.
    Arizona and Maine, as you will hear from Chellie, have 
similar systems, which have largely been successful. Such 
systems allow candidates to spend more time with their 
constituents, more time, frankly, with their families, and less 
time, as I believe all of you have acknowledged, in the pursuit 
of money through fundraising.
    This has to be good for the country. It has to be good for 
people individually. It will provide Members an opportunity 
perhaps to get to know one another as well as the issues that 
we are debating as well.
    I introduced the Fair Elections Now Act, which is commonly 
referred to as FENA, with the support of Common Cause, U.S. 
Public Interest Research Groups, Public Campaign, and many 
others. I am also proud of the sponsorship in the Senate by 
Senator Durbin and Arlen Specter.
    Mr. Chairman, at this time I ask unanimous consent to enter 
these letters of support of FENA into the record.
    The Chairman. Without objection, so ordered.
    [The information follows:]
    

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Larson. Last, Mr. Chairman, abiding by your time 
request, and having slightly gone over it, I want to say that 
this bipartisan effort is something States have already done, 
and now it has put the focus on Congress. We have a great 
opportunity here. There is more commonality of concern about 
what this process does to us, how corrosive it has become. We 
are open to ideas and suggestions. Zoe mentioned indexing. Mr. 
Capuano has other ideas on how to perfect the bill. I am sure 
that ideas emanating from Mr. Harper and Mr. Lungren are also 
ones that could better shape elections as we go forward.
    That is our commitment, and that is our goal. But primarily 
we know we are part of a corrosive system that we need to take 
back to the people and have them once again feel that the 
government that they have is their own.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The Honorable Chellie Pingree.

  STATEMENT OF THE HON. CHELLIE PINGREE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Ms. Pingree of Maine. Thank you very much, Chairman Brady, 
Ranking Member Lungren, and distinguished members of this 
committee. Thank you very much for allowing me to say a few 
words about this particular bill and about the experiences that 
we have had in my home State of Maine.
    First, I just want to thank Mr. Larson for his sponsorship 
and hard work already on this bill. It has been a pleasure 
working with him and also Mr. Jones from North Carolina, who 
has already done so much in his own State legislature to 
promote this issue and comes from a State where there has 
already been several advancements made.
    So I am honored to sit here on the panel with both of you 
and to just take a few minutes to talk to all of the members of 
the committee.
    I am a staunch supporter of this bill and will summarize my 
testimony and submit my written remarks, but I just want to say 
a few high points about this.
    My experiences in Maine really brought me to understand how 
much this can change a legislative body and how much it can 
change all of the members of that body. I have seen firsthand 
how well this works.
    Currently in Maine we have had an operating public 
financing system, somewhat similar to what we are looking at 
today, since the year 2000, and 85 percent of the members of 
the State legislature, Republican and Democrat alike, run under 
this system, including my daughter, who happens to be the 
speaker of the house, who I am grateful to say is on the second 
panel, and you will hear far more interesting information from 
her. Heaven forbid she ever runs against me in a primary. But 
that is another matter for another day.
    I actually have never run for office under the public 
financing system. I was elected in 1992 to the State 
legislature, went on to serve as the senate majority leader, 
but was term-limited in 2000, at which point I decided to run 
for the United States Senate and had an experience somewhat 
similar to what all of you are describing and was required to 
raise millions of dollars for that campaign. As we all know, it 
takes the launch of a United States Senate campaign to get your 
message out there.
    My strongest recollection of those 2 years is something 
which I think many of you experienced in a variety of ways. We 
actually had three people sitting outside the room, precalling, 
to get the calls through. I spent virtually my entire day, 
sometimes up to 20 hours, because you can still call 
California, as you know. At 9 o'clock at night in the State of 
Maine, you are still awake out there and calling people from 
around the country saying, Hi, I am Chellie Pingree, running 
for the United States Senate. Would you be willing to donate to 
my campaign? People I had never met before, people who maybe I 
heard of somewhere, people who had maybe heard of my campaign, 
asking them if they would support my campaign. And that is how 
we went about raising most of that money.
    At exactly the same moment, my daughter Hannah, whom you 
will meet, was 25 years old, had decided to run for the State 
legislature, where we had just implemented public financing of 
campaigns, a completely voluntary system very similar to this 
particular bill. She found people who would give her a $5 
contribution to qualify her for running for office. Once she 
was qualified, she got a reasonable amount of money to run her 
campaign--not an excessive amount of money, not lots of TV ads, 
but enough for signs and mailings and radio ads.
    Then, you know what she did while I was sitting in that 
white room for 2 years? She knocked on doors, she went to the 
fish piers, she went to the grocery store. She talked to all 
those people who never thought they would meet a politician or 
participate in a campaign. She engaged them. And she is fond of 
reminding me she won that campaign. I didn't happen to win that 
year. But it made a difference in how the campaigning was 
conducted. And it was exactly, as all of you have said, just 
how we want campaigning to take place.
    I was fortunate enough to run again in 2008, and, as you 
know, I am now a Member of this wonderful body. But I would 
like to see us implement a system very similar to what we are 
talking about in Maine, and this would be--it would be a 
voluntary system. People would collect a reasonable amount of 
contributions that were relatively small, that meant anybody 
could participate. It would then show that a candidate was 
qualified.
    Not anybody could run for office. You would have to collect 
1,500 contributions; $50,000 would be the total of what you 
would have to raise. But then you would get also a reasonable 
amount of money to run for office. And just as we do in Maine, 
if your opponent runs without the system, you would be able to 
match some of what they raise.
    So it creates a level playing field. It allows for some 
support for the high cost of broadcast TV. It has a variety of 
other technical issues in here which I would be happy to talk 
about at any time. But it really would change the system 
whereby we go about running for election.
    I know, because I have been a State legislator, a senate 
majority leader; I know how hard it is to recruit candidates 
and tell people that the next thing you are going to have to do 
is turn around and raise money. I know how hard it is to get 
diversity in the pool of candidates. This could make an 
enormous difference.
    I also know how hard it is to get a politician to change 
the system by which they got elected. We all got here and then 
we say, Well, maybe it wasn't so bad. Maybe we should just 
stick with the way we have got. But it is completely 
unacceptable to the public on the outside. It allows for too 
much influence, whether we choose it or not, of outside money. 
And, clearly, it changes our behavior, the way we have to spend 
our time. And as a member of the freshman class, I know as well 
as anyone that as soon as somebody finishes a vote, the first 
thing they have to do is get out of the Chamber as fast as they 
can and start making those phone calls. Before you know it, the 
next election is around the corner. And all of us want to be 
back here serving the people.
    I just have to ask myself one question: If we had full 
public financing here, a voluntary system, and if as many 
Members chose to use it as the State of Maine or Arizona or now 
Connecticut, would we be struggling this week to figure out how 
to put together a health-care bill? Would it really be so hard 
to make policy if we didn't have all the outside influences?
    It certainly, I know, would change our behavior. And I am 
looking forward to supporting this system. I thank you for 
taking the time to listen to this today, and would be happy to 
work with you and answer any questions.
    The Chairman. I thank the gentlelady.
    [The statement of Ms. Pingree of Maine follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. The Honorable Walter Jones.
    Mr. Jones. Mr. Chairman, thank you. I would like to submit 
my written statement for the record and take just a few minutes 
to go off the reading and speak from the heart.
    I want to thank Ms. Pingree and Mr. Larson for their 
leadership and including me the opportunity to join them in 
this effort.
    The system, as has been acknowledged by those of you at the 
dais, the system is broken. There is no question about it. Too 
many times Members of Congress have to go back and raise money 
from the lobbyists. And there is a place for lobbying, and I 
don't think any of us disagree with that. The law says there is 
a place. But the perception that we go back to the people who 
are lobbying us to raise money is where the public really loses 
trust in Washington and those of us who have the privilege to 
serve. Nobody is bought. I don't think that. But the public has 
a different opinion, many times, than what I just stated.
    I was--and I want to thank Ms. Pingree for saying I started 
the effort in 1987. I brought a bill to the floor of the House. 
For 1 hour I could see I was losing the vote. I sent it back to 
the committees with no hopes that it would come back out of the 
committee. However, today we fund our State judges through 
public finance, and it is working, and it is working well.
    I want to go to another issue very quickly. I will never 
forget in 2003, when my party was the Majority and we had the 
Medicare prescription drug bill on the floor. We started the 
vote at 3 in the morning, and we finished the vote at 5:53 in 
the morning. That night, I think, was the political Sodom and 
Gomorrah on Capitol Hill.
    I will never forget walking at 2:30, 3 o'clock in the 
evening, a.m., and lobbyists lined up. They outnumbered Members 
of Congress. How are you going to vote on this; do you know 
this about why you should vote for this? And then when you got 
up into the Capitol, they were still there.
    Now, that doesn't happen often, but it doesn't need to 
happen but one time. And the people don't forget it.
    I think what Mr. Larson has put together, that Ms. Pingree 
and Mr. Platts and I have joined in, is a vehicle that can help 
fix the problem. He has acknowledged, we have acknowledged, 
that we know that there could be other ideas that can make this 
a success.
    Mr. Chairman, a couple other points real quickly. I am like 
anyone else. When I go home, and I do the shopping for my 
family, and I go in the grocery store and I see the families 
that I don't know what they are making, let us say $40,000, a 
family of three or four, and I am thinking that I wish that we 
could raise our moneys from those families; $10, $15. And some 
of us do get--I do. We do a mailing, I get $10, $15, $25. And 
nothing makes me feel better, quite frankly. Yet we need the 
other money, too.
    So I think today what we have is an opportunity, as has 
been said by the two who spoke before me, and some of you, this 
is an opportunity to return the government back to the people. 
Yet it doesn't mandate that we all have to abide by this 
process should it become law.
    A couple other points in the minute and 6 seconds I have 
left. The reason I think that the public financing checkoff is 
not as strong as it has been is simply because of this problem 
here. People say, Well, what does my $5 or my $10 do, or my $1, 
depending on what State, or if it is the national campaign, 
because they understand.
    I wish Mr. Obama had--quite frankly, I wish he had stuck to 
his pledge--this has not been a criticism--to abide by the 
public financing. I think that would have sent a message; even 
though he had a tremendous vote, he had a lot of small moneys 
coming in, but I think it would have sent a message that 
Washington, DC, wants to return the power to you, the people of 
this country.
    So, before closing, I just want to say again, Mr. Chairman, 
and to the Ranking Member as well, thank you for giving us this 
opportunity. I have testified a few times, maybe not as many as 
others, but I will tell you I walked into this room today 
thinking that this was the most important testimony that I 
could be part of, because the system is broken, the system 
needs to be fixed, and Mr. Larson has presented a bill that 
will work us toward fixing the problem.
    I want to thank you, Mr. Chairman, the Ranking Member, and 
the committee for giving us this opportunity. I hope that you 
will--from this hearing today and the next witnesses, let us 
return Congress to where they vote based on their conscience, 
not on the influence or perceived influence of money that buys 
the conscience. Let us return it back to the people.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    We will now have our question and answers. I just have a 
few brief questions.
    Connecticut, Maine, and Arizona have public financing. Are 
they similar? What are the differences within the three States? 
Does anybody know? I mean, we don't know about Arizona, unless 
you know about Arizona. We have got Maine and Connecticut. Any 
glaring differences? This bill will unify all States, but any 
differences?
    Ms. Pingree of Maine. The next panel will have a couple of 
people who probably could answer it more technically, but I 
would say these are basically the same kind of system. They are 
voluntary systems. You collect a reasonable number of 
qualifying contributions, very small amounts of money. For 
instance, in Maine, it is $5. Fifty $5.00 contributions. On 
this one you have to collect $1,500; obviously, a much bigger 
area. And then you are given a lump sum fee by which to run 
your campaign. Sometimes it is based on the average of 
campaigns run in your district before or campaigns run in your 
State. Most of them have a component whereby if your opponent 
runs without using the system, you can be matched with the 
public money up to three times. So there is not an unlevel 
playing field. If the allocation is $500, then you can get $500 
three times every time your opponent goes over that.
    So it is a way to keep it level. It is a way to discourage 
people from not using the system. But, of course, they 
certainly can.
    One thing that is different about this one is it is 
somewhat similar to what goes on in New York City. For $100 
donations or less that are raised within your State, you can 
actually kind of go outside of just the allocation, and those 
$100 contributions or less are matched four to one. So the 
total under this system that you could raise under the sort of 
configuration it is right now is, I think, about $3.4 million, 
$3.3 million. And there is a very limited number of Members of 
Congress who have actually raised or spent over $3.4 million, 
$3.3 million in their campaign.
    One of the questions that often gets asked is: Will there 
be enough money? People don't want to sign up to run under a 
system and then find out they are in a challenging campaign, or 
the media market is expensive, or they need to answer some ads. 
They want to make sure there is plenty of money.
    That is one thing that is different about those other 
States, the match and the ability to go outside it. This one 
also has a $100,000 media voucher. That is often an issue that 
people bring up: What about free air time for candidates, or 
what about a way to get more air time? That is included within 
this package.
    Mr. Larson. Mr. Chairman, I would just add, as well, again, 
I just want to say the similarities are the voluntary nature. 
And I also would go back to this--and specifically in this 
legislation, meaning the Buckley v. Valeo test. I think it was 
suggested in your opening remarks, Mr. Chairman, with a case 
pending before the Supreme Court, this bill becomes even more 
important, depending upon that ruling.
    I would also add that, sharing a lot of the views that Mr. 
Lungren expressed, Jack Kemp probably could have got elected 
under this system.
    The Chairman. Why should a new Member, someone from a 
marginal district, support this bill and want to limit his or 
her ability to limit the necessary funds to raise to win in 
marginal districts?
    Mr. Larson. I think, number one, 73 percent of Americans 
feel that Members of Congress are unnecessarily influenced by 
special interests and their campaign contributions. Seventy-
three percent of Americans believe that campaign contributions 
from the banking industry have played a major factor in the 
recent financial crisis.
    Any Member that is running, any new Member that is running, 
and a candidate participates in this program, can tap into $2.4 
million of public funds. This is in addition to what he or she 
raises.
    Candidates who participate are incentivized to meet and 
interact with their constituents. Further, they have much, much 
more time to work on the issues on which they hear from their 
constituents, whether they be at public forums or hearings, or 
whether, when elected, actually work on legislation.
    The Chairman. One last question, in my mind. You talked 
about a $100,000 media voucher. Is that every State? Do States 
have to fluctuate on what amount voucher they can get per media 
market? I don't think we can get an 8-second commercial in the 
city of Philadelphia, the State of California, or the State of 
New York or the city of New York for $100,000. Does that 
fluctuate, or is it broad-based throughout the whole country?
    Ms. Pingree of Maine. In terms of what I know, that is just 
the same. But that is just an add-on to everything else in the 
campaign. It also requires a 20 percent reduction off the 
lowest media rates, which is often an issue when you are 
running for office is that you are supposed to get the lowest 
rates, but many people feel like they don't. I think there is 
someone on the second panel who can probably answer that more 
exactly.
    Mr. Larson. It is above and beyond what you are able to put 
together and raise. You are right, in the Philadelphia market a 
$100,000 voucher isn't going to get you far on TV.
    The Chairman. Won't get you a return phone call.
    Mr. Larson. Again, as you look at this both in terms of the 
amount of money that you would be able to raise in a primary 
and then as the amount of money that you would be able to raise 
in a general election, there would be sufficient funds there. 
This voucher is just an add-on. If you are running in Wyoming 
as opposed to Philadelphia, $100,000 might be more than you 
would need to get on the airwaves.
    So part of some of the suggestions in perfecting this bill 
is making sure that you not only index it, but also have 
sliding scales as they relate to districts. These are bills--
and I know that the committee is aware of this--that other 
thoughtful Members like John Tierney and Dave Obey have 
introduced legislation. I think segments from their legislation 
that help expand and utilize the system better, as long as we 
keep it voluntary and make sure that it can suffice with 
respect to Buckley v. Valeo, I think that any additions in 
terms of making the system work would be welcome to the 
cosponsors of this the bill.
    The Chairman. I thank the gentleman.
    Mr. Lungren.
    Mr. Lungren. Thank you very much.
    It seems to me one of the underlying assumptions that you 
have for the bill is that this will help diminish the impact of 
money in politics. It has been my observation that you don't 
diminish the impact of money in politics, you redirect the 
money in politics, such that now--as much as we raise money, at 
least that amount, if not more, in most cases, more is being 
spent by other groups, 527s and so forth, who may think they 
are doing something for you or against you, and you have no 
control over independent expenditures. You can't even tell 
them: Don't run that ad, even if they are trying to help you.
    I just think the assumption that if you do this, you are 
going to take money out of politics just doesn't stack up. 
Right now I have had so far nine robocalls against me. I have 
had three radio ads. These are, I believe, in most cases, 
identified with the Democratic Party. You may have had a 
passing relationship with that party. In most cases, they are 
organizations that are front group for unions. This does 
nothing to stop that. That requires me to spend more money.
    And, Mr. Jones, you suggested that we have this aura--not 
aura, this claim against us that we make our votes because of 
the money we get. Well, those robocalls suggest that. They go 
back and they find out how much money I have gotten from people 
related to banking during my 30 years in politics, add that all 
up to some form, and say, Tell your Congressman to stop 
supporting those special-interest groups based on the money 
that he has received, which is totally absurd. Yet the very 
things that are being directed at me are the things you are 
arguing that we have to respond to because we are raising 
money, and somehow, magically, because we are going to get it 
from public funds, that is going to stop it.
    There is nothing in this bill that will do anything with 
527s. There is nothing in this bill that will do anything with 
the SEIU, which spent $1 million in my district in the last 2 
weeks of my last campaign, not against me, but against one of 
the State legislators, as is their right to do. And my 
frustration with this is we have created systems already with 
McCain-Feingold, and now with your system that will supposedly 
cleanse the system by taking money out or away from us, and it 
will be given to groups that have no responsibility.
    Now, I don't understand how that is a superior position to 
having a system which causes all money or as much money as 
possible, even in huge amounts, to be directed to our campaign 
so that we have to take responsibility for it.
    Mr. Larson. I understand and appreciate the gentleman's 
frustration.
    Mr. Lungren. I think your bill just moves us further in 
that direction.
    Mr. Larson. Our bill, you are right, does not address 527s. 
That, I believe, is a whole separate argument that deserves to 
be addressed. But our bill doesn't address that. Our bill 
addresses us, elected Members of Congress.
    I think it is pretty consistent, listening to the Members 
here, the level of frustration that we have. Yet if we don't 
take the first steps to--and this is not about getting money 
out of the system. Everything that this bill calls for is 
raising money. You still have to go out and solicit. It is just 
smaller funds and in your State.
    What it seeks to do, I think, is end the corrosive part of 
this process and then provide an opportunity to put the public 
back in charge. Whether it is through the enhanced checkoff 
system or a sale of the public spectrum or other means that 
could create a fund, a people's fund that would provide a trust 
from which you could tap into that, I think is better overall 
for the health of democracy.
    Now, with regard to 527s, I think that there is a lot of 
work that needs to be done in that area, but the two are not 
related.
    Mr. Lungren. We are talking about the political system. It 
is the clash of ideas. We ought not to be afraid of ideas. That 
is the inconvenient truth we have here, which is the First 
Amendment to our Constitution----
    Mr. Larson. I am not afraid of ideas.
    Mr. Lungren [continuing]. Which allows us to say things 
that are embarrassing or wrong or inappropriate. That is the 
genius of the First Amendment. And because we have the genius 
of the First Amendment----
    Mr. Jones. Mr. Lungren, excuse me.
    Mr. Lungren. Just a second.
    Because we have the First Amendment, it puts certain 
inhibitions against what we otherwise might do.
    As I say, you can sit here and talk about this. I have had 
nine robocalls against me; I have got two or three ads against 
me by groups that are not responsive, which is going to cause 
me to spend more money to respond to that. Yet there is the 
suggestion if we have public financing, we will get rid of 
these kinds of concerns.
    Frankly, the record has been, as we have tried to restrict 
funding and individual contributions to individuals, we have 
seen that money go in other places. I suspect that if this bill 
passes, you will see that money not going to Members, because 
you restrict the amount of money they can get from any 
particular individual or any particular group. Those 
individuals and groups will spend it in other ways because they 
have got a concern about what government is going to do for 
them or against them.
    So we are going to have more of this which we have in our 
politics today which is we as candidates can't control the 
debate to the extent that the people that want to support us 
support it through us, as opposed to other things. That is the 
concern I have.
    Mr. Jones. Mr. Chairman, since he used my name, but not in 
vain----
    Mr. Lungren. I was complimenting you.
    Mr. Jones. I know you were, but I wanted to speak very 
briefly, because John gave the answer.
    This is not about us. This is about those people who would 
love to run for Congress that do not have the accesses that we 
have. It is to create an opportunity for a person in a district 
that maybe doesn't have the contacts, but maybe can work 
through the system that we are proposing to get a little bit of 
money to challenge me or someone else. That is the only way 
this democracy is going to survive.
    I don't know--not you personally--I don't know how anyone 
would be opposed to looking at this as an option, because it is 
strictly voluntary. It is strictly voluntary. I don't see how 
we lose on that one. Thank you.
    The Chairman. I thank the gentleman.
    Ms. Lofgren.
    Ms. Lofgren. Yes, just a couple of quick questions on the 
broadcast voucher.
    Coming from the Bay area, you couldn't buy any amount of--I 
mean, this would do nothing. And so the question is could these 
vouchers be used for some other form of media? Could you use 
them to buy ads on Google or Yahoo? Could you do radio instead 
of TV? Have you thought about that?
    In Los Angeles, I don't think any Members of Congress runs 
ads because it is just prohibitively expensive to do TV in Los 
Angeles.
    Mr. Larson. Yes, we have thought about it. The Tierney bill 
is far more expansive in that area, and certainly we are open, 
as I said, to change, because what is right for Connecticut, 
Maine, or Arizona may not be right for California, 
Massachusetts, Pennsylvania, Alabama. It may not work that way.
    So to be able to have a sliding scale and to be able to 
perfect this as we go forward. But, as Chellie said, I think 
the panelists behind us, the architects of the concept in the 
bill, will be better able to explain the thinking behind that. 
But certainly the most important thing about this thinking is 
the flexibility and the recognition that you are going to get 
good input from Members who know better than anyone else what 
goes on in their congressional district.
    Ms. Lofgren. I will then ask the next panel. I am 
interested in alternate media.
    Mr. Larson. Which makes sense. That is the way the world is 
moving.
    Ms. Lofgren. Yes. We have a second panel, and there are a 
lot of Members, but my other question, from time to time we get 
concerns, and I think it is legitimate, our colleagues who come 
from extremely low-income communities have a very difficult 
time raising funds in those communities because people are so 
poor.
    President Obama had the biggest on-line small-donor 
campaign in the history of the United States. I don't know if 
anybody has analyzed the donation patterns to see how many of 
those small donors lived in low-income communities. If you 
have, I would be interested. Maybe the next panel has. But I 
think that is an important thing to know for our colleagues who 
represent very low-income communities.
    Mr. Larson. It is a great question. I don't have the data 
off the top of my head, but perhaps the next panel does.
    Ms. Pingree of Maine. And I would just add, if I may, part 
of the design of this system is to address one of your 
concerns. Many of us start running for office by calling all of 
the people we ever went to college with.
    Ms. Lofgren. I understand. I worked off my wedding list. It 
was, walked two precincts, gave $25, silver tray.
    Ms. Pingree of Maine. The silver tray was worth $100.
    Ms. Lofgren. No, no, the silver tray was the wedding 
present. It was all on one card.
    Ms. Pingree of Maine. Exactly. What this is attempting to 
address, many people don't have business contacts, or they 
didn't serve in politics before. They don't have some other way 
to get started. This says if you come from a community where 
you can ask all the people in your neighborhood to chip in a 
$10 contribution, as Walter was saying, you can turn that into 
matching money.
    Ms. Lofgren. I understand that. But there is also an on-
the-ground reality depending on the level of poverty in some of 
these districts. When I ran, I mean, I was never expected to 
win. And I had people who borrowed money so they could donate 
$200. It was a sacrifice that people made, but they wanted to.
    In some parts of America, you can't do that. It is feed the 
kids, or donate; and the kids are going to get fed first.
    I would just like to know--and I think we have a great 
experiment in a sense in the Obama campaign. I am sure we can 
get that information and analyze it if it hasn't already been 
done. I think it will be an important piece of information for 
many of our colleagues in those communities.
    I yield back the balance of my time.
    The Chairman. I thank the gentlelady.
    Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    Obviously everybody has good intentions to make the system 
always work better, but if our concern was, I believe you said, 
the corrosiveness of large contributions, then why did we 
increase last year's limit of $2,300 up to $2,400? We seem to 
be allowing for that.
    Mr. Larson. If I could respond.
    Mr. Harper. If I may finish, and then you can answer. I 
want you to be able to respond to all of this.
    If the deal here is the concern about large contributors, 
which we all want to get when we are making our calls for 
contributions for campaign, I found it very easy to accept 
contributions and vote against that position if they were so 
inclined to make a contribution. Every one of you in here I 
know have done that because you do your job, and you do it 
fairly and efficiently.
    But I am sitting here and looking at these letters, Friends 
of the Earth, worried about the coal, oil, and gas industries 
using their people to contribute.
    Here is another: Chesapeake Climate Action Network, 
worrying about the coal, oil and gas industries.
    Here is Health Care Now worrying about health care 
industries' tremendous influence by their contributions.
    How is this any different than the individual contributor's 
influence that they may have? We are loaded up--you know, if it 
wasn't for special-interest groups coming to see us, we 
wouldn't have anything to do. And we are not really addressing 
that in this particular situation.
    And this is not voluntary for our taxpayers. Unless there 
is something that is created that allows the taxpayer to say 
none of their tax money is to be used for this, it is not 
voluntary to the folks in my district.
    If our concern is what to do about--as you said, 
Congressman Jones, about allowing somebody who doesn't have the 
financial means to run a campaign, most of the self-funders--
and I think the Wall Street Journal, and I may be wrong, did a 
study on self-funders, and most of them lost.
    I am a perfect example within the system that existed to 
run a grassroots campaign on not much money. It is unheard of 
to think that you can raise a quarter of a million dollars and 
make it into a primary against people with $600,000 and $1.3 
million. And we did it, and we won because we worked harder 
than anybody else, and we had great friends across the district 
that were helping us.
    You look at the cost of starting a new Federal agency to 
oversee this. And if this did happen, isn't there some group 
that could oversee it without a new bureaucracy created? This 
is going to cost us money. So if we are going to deal with 
this, let us deal with something that is going to be 
completely--deal with the whole issue. That is what I would 
like to do.
    Congressman Larson, you wanted to reply. I want to give you 
a moment to do that now.
    Mr. Larson. Let me just say, when I used the term 
``corrosive,'' what I meant by that was the entire approach 
ends up being corrosive. What is it corroding? It is corroding 
the democracy. It has us spending an inordinate amount of time 
with our hand out, regardless of what the amount is.
    Now, this still doesn't get us away from that, it just 
makes it de minimis. And then it alleviates the time because of 
the matching amounts of money. So it makes the amounts de 
minimis, but it makes the influence of people who can give de 
minimis.
    I am not suggesting that anyone up here, nor any Member of 
Congress, for whatever the contribution will do, they will do 
exactly what you said. They will vote their interest. They will 
vote against something. I am not suggesting that person or that 
person's campaign contribution is going to change your mind. 
What I am suggesting, though, is overall in an entire system 
where everybody is doing that, it is corrosive.
    Mr. Harper. Thank you, Congressman.
    With that I yield the balance of my time to Congressman 
Lungren.
    Mr. Lungren. Mr. Chairman, I would like to introduce two 
items for the record: One, a study of the Campaign Finance 
Institute on President Obama's campaign and large donors versus 
small donors, which shows that President Obama, 26 percent of 
his donors were $200 or less; and George Bush, 4 years before, 
25 percent of his donors were $200 or less. And also a CNN 
article on large contribution political donors who are now 
supporting the Fair Elections Now Act.
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lungren. I just want to say that I appreciate everyone 
here and their position. I do remember with public funding we 
created or helped create a Lyndon LaRouche who ran for 
President from a prison cell, and continues to run for 
President with public funds, and I think that might be what Mr. 
Davis was suggesting in some of these situations. And I don't 
know how you can construct a system to stop the Lyndon 
LaRouches of the world from taking advantage of a program like 
this, but, frankly, I don't think we need to create more of 
them in our political system.
    The Chairman. I thank the gentleman.
    Mr. Capuano.
    Mr. Capuano. Thank you.
    First, I would like to echo the Ranking Member's words. I 
don't like 527s either. I have never had the good fortune of 
having any ads run against me just yet. I would encourage the 
right-wing 527s to please come to Boston and run a few ads 
against me; it would help me raise more money. But I don't like 
them either. I would be happy to add anything that we can think 
of to limit them or get rid of them to this bill or any other 
bill any time. I think they are corrosive to the system as 
well.
    And I also would like to find ways to limit or at least 
make transparent outside entities that want to come in and 
weigh in on each of our races. I have no problem with that. I 
hate people coming in and creating an agency or group that 
claims to be some good-government group, and then kicks us. We 
all know it is one millionaire or one group of people kicking. 
We both have them.
    Again, transparency is probably all you can do. But if 
there is anything that the Ranking Member or anybody else would 
like to do on 527s or the like, I am more than happy to join in 
on that.
    As far as voluntary taxes, I wish they were voluntary 
taxes, because my constituents wouldn't be sending a nickel to 
Iraq. We wouldn't be sending a nickel for half of the things 
that we spend money on. Unfortunately, that is just not the way 
it is. We all get together and beat each other up here, and we 
come up with a general consensus of where we want to spend 
money, and that is called taxes. That doesn't mean we get to 
have checkoff boxes. I don't like the Presidential checkoff box 
for that very reason, for that very reason.
    I totally agree with the issue that Mr. Davis raised about 
limited access. I totally agree. I am not looking to fund the 
extreme anybody. I want legitimate candidates on the ballot. I 
think there are ways to do that. I think this bill has some of 
those provisions in it. I would like to see some strengthened, 
but the concept is exactly right. Nobody is looking to fund--
and, by the way, the LaRouches that used to be in the 
Republican Party, and now they have come over to us. Do you 
want them back?
    Mr. Lungren. They have found their natural home.
    Mr. Capuano. I owe him one.
    As far as this bill goes, again, I do have some problems 
with it. One of the problems I don't have is the numbers. The 
amount of money that is potentially available here is $3.3 
million to a specific candidate. Like Mr. Harper, I do come 
from one of the most expensive TV markets. Not 10 years ago, 
but in today's market, I would have raised and spent about 
$700,000 in today's market, so probably comparable to the 
numbers you have. I beat guys who literally have spent 10 times 
more than me. I totally agree with that concept. I actually 
think this number is too high, my personal opinion, but that is 
a different issue.
    I also don't think that you have to have $3 million. I have 
to have $3 million if you have $3 million so I can get my 
message out. If you don't have $3 million, I don't need $3 
million. All I want is a reasonably level playing field so 
whatever message you can get out to say how good you are or how 
bad I am, I want to be able to do the same. That is all. And 
the whole concept that it costs millions of dollars to run for 
Congress, it only does because people who run spend that kind 
of money. It shouldn't cost that amount of money.
    Again, different issue, my guess is we probably can't limit 
that, so there has to be some number. I just think if there are 
other proposals out there, I am more than happy to do it. I 
don't want to spend taxpayers dollars either if it is 
avoidable. If there are other proposals to do this, please, let 
us put them on the table and talk about them. All I want to do 
is I want to do whatever we can to advance the ball: One, get 
my time back so I can do what I ran for office to do; and, 
number two, to enhance the view of the public and at least our 
integrity, if not our judgment--I guess we need to do that 
individually--but at least the integrity of the system.
    We have all said it, and we all know it, there are all 
kinds, and every couple of years this comes around. I have 
taken some money from some people who are now being called up. 
I have looked. In all of the years I have been here, less than 
1 percent of the money I took was from some of the people that 
are now being concerned. Nobody is going to sell out for 1 
penny on the dollar. That is ridiculous. But you can't tell 
people because the numbers are big.
    And I am not a good fundraiser, but since I have been here, 
I have raised about $5 million, and I am not that good at it. 
That is obscene. Before I got to this job, the most money I 
ever raised was $100,000. All I want to do is get away from 
that.
    Nobody ran for this office to come and raise money. I don't 
think, I am not so sure, but if we really knew what we were 
getting into, I am not so sure that some of us wouldn't make a 
different judgment. But once you are in it, you are in it, you 
are on the treadmill. I want to get off the treadmill. If there 
are other ways, believe me, I am not stuck on this. Help us 
find a way as opposed to simply saying the current system is 
okay.
    The current system is not okay. It doesn't work, and I want 
to thank my colleagues for putting this forward. I want to 
thank my colleagues very much for being open to discussion and 
amendment on this as we move forward, and I hope that we can 
make some progress to get us all back to what we really want to 
do.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    For the record, Mr. Capuano didn't mean the money he took, 
he meant the money he raised.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I hope you watch my words here, too.
    The Chairman. I am the conscience here.
    Mrs. Davis. I appreciate your all being here, and I think 
this is a critical issue. None of us want to be telemarketers. 
My concern, and the reason that I have supported in concept 
public financing, is because I think we work better when we can 
focus our efforts on solving the problems that we want to solve 
for our constituents.
    No matter how you talk about this, it takes people away 
from that basic task before them. There is nothing wrong with 
having supporters, and certainly people want to play a role and 
engage, and I think that is important, so we need to find ways 
for people to do that, and we have lots of examples of that.
    I think the other concern really is we are trying to match 
efforts. We are exhausting the voters at the same time. We have 
supersized campaigns, supersized like so many other things in 
our culture. That is really what has happened. That is part of 
the problem.
    I have a few questions, and they relate to what do we know 
now about these efforts in other States. And, Chellie, you 
spoke to that, and I think the second panel will speak to that 
as well.
    What do we know about whether or not those particular 
States have reasonable-size campaigns? Do they go from being 
supersize to being more reasonable? Is the activity of the 
527s, is it any less; is it any more; is it just the same? What 
is our experience with that?
    Do candidates actually spend less time fundraising? We are 
talking about $5 and $10 contributions, and that does play a 
role engaging people, and it is far better than spending the 
time on the phone in a whole different format, but does that 
mean people really have more time?
    It seems to me perhaps we do have some opportunities as we 
look at the bill and we try to figure out how we can help it 
move forward. It is what do we know now? What kinds of studies 
are out there? I happen to believe that there are tons of 
graduate students who have studied a lot of these races, and 
perhaps we can look at those at well. If you have any comments, 
I would be happy to entertain them.
    Ms. Pingree of Maine. I know there are some studies that 
will be handed out to the committee, and I think all of the 
States are attempting to do a significant amount of analysis as 
to how this changes the makeup of people who run for office and 
the amount of money spent.
    I will speak briefly about my experience in Maine and then 
leave it to the people who are actively working on this now. 
But I think you and others portrayed this accurately in the 
sense that we have gotten into an arms race here. If you look 
back to Ms. Lofgren, who said $50 was a lot of money in the 
1980s, and now you probably wouldn't make a phone call for $50, 
you would get it in the mail. Now it is a $2,400 max that you 
are trying to get with a phone call. We have changed the 
culture of this. We have upped the amount of money we can 
spend, the TV buys, and fighting back and forth.
    One of the things that doing this does, and Maine has about 
85 percent of the Members who run under this system, basically 
there is a cap. So if you have two people under the volunteer 
system, they get a limited amount of money. I can't tell you 
the exact amount, but let us say if you are running for the 
State senate where you only have 35,000 in a district, you get 
about $25,000 to run on, and that is it. So your opponent has 
$25,000.
    Mrs. Davis. Have independent or third-party candidates 
participated more meaningfully in these situations than one 
would see across the board?
    Ms. Pingree of Maine. I should let somebody behind me 
answer that. I think there have been times when third-party 
candidates have been able to participate. But again, you have 
to be--become a qualifying candidate. So you still have to find 
people to write you a $5 check. Sometimes that is harder than 
you think. It is one thing to get a signature, but when you say 
to somebody on the street, hey, can you also write me a $5 
check?
    I may be inaccurate here, but I also want to comment on the 
outside expenditures. If an outside expenditure is directed 
towards you and the matching system, it can trigger a match for 
you. So if somebody from the outside runs an ad against you, as 
was being talked about, that can actually trigger a match into 
your account. So in a sense, you have much better control. That 
money goes into your account, and you decide how to answer back 
what is being said about you, which I think takes away some of 
the influences of these sort of warring outside expenditures 
which you have no control over.
    The only other thing I wanted to say something about, 
having lived in a State where we have really had a lot of 
change in the system since 2000, is it starts to change the 
culture. The newspaper will now editorialize against who 
doesn't run under the public financing system and start to ask 
questions. It doesn't mean that many people don't, because it 
is still voluntary. They will also run more editorials about 
outside expenditures. Why are you doing that against that 
candidate; we have a public financing system. So I think it 
gets more attention to the culture of your campaigns which we 
have kind of lost here in this arms race. That is my opinion 
anyway.
    Mr. Larson. Susan, you are going to hear from Jeff 
Garfield, the executive director of the Connecticut State 
Elections Enforcement Commission, later, and I am sure you will 
find those statistics interesting on how it has worked in 
Connecticut.
    But your point, I go back to when I first ran for the State 
senate in Connecticut. We used to do something called 10 for 
10. We would have 10 households invite people and raise $10 
from each person who came to their household. And then they 
would gather collectively. It was just a more communal way of 
doing this. At that time you raised money in the community, in 
your State, et cetera. There wasn't the kind of resources and K 
Street and all of the other influences. So the emphasis is here 
conceptually, and you have to work on it, but is to get back to 
that communal relationship.
    But I dare say that the threshold of 1,500 people and 
$50,000, and while $50,000 doesn't sound like an awful lot of 
money, when you have to get there with $100 contributions, it 
is. And some of the questions that have been raised about 
poorer districts and how we can monitor, those are the things 
that we need to work through. But in concept, as you said, you 
are supportive of it. I think that is the beauty of a hearing.
    Again, I thank Mr. Brady, because these are the kinds of 
hearings and things, frankly, we don't get to talk enough 
about. And there is wide opinion on this. Nobody has a bad 
opinion, it is just a matter of how we are working this thing 
through for the collective good of the institution, in this 
case the Congress, and the democracy that we participate in.
    Mr. Jones. Mrs. Davis and Mr. Chairman, I think what has 
been said is so important for this reason. In the State of 
North Carolina, we failed in 1987 and 1989, but now we have a 
system for our State judges that is working extremely well. It 
is working. The panel behind us will be able to speak to the 
details of some of these States. It is working, but it is 
working because the people want it to work. That is what we are 
trying to say here today.
    Thank you for your leadership on the Armed Services 
Committee, and thank you for what you said, because this is a 
golden opportunity to move forward.
    The Chairman. I thank the gentleman.
    Mr. Davis.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    I think what history shows us is that virtually every 
adventure, every experiment in regulating the financing of 
campaigns has led to unintended consequences. Many Congresses 
ago corporate contributions were banned, PACs emerged. We put 
limits on campaign contributions under the theory that would 
dilute the influence of money. Candidates adjusted by raising 
more money from more people and having to reach out to even 
more special-interest networks to reach their budget goals.
    The McCain-Feingold bill in the early part of this century 
has not reined in independent expenditures. Independent 
expenditures have exploded. The concept of bundling is now 
common in politics. At the State and Federal level, large 
donors who get together and raise money for you, and they may 
only be giving you their $2,400, but they have raised $50, and 
they walk in and hand you the $50 that they have raised.
    My sense is that there would be unintended consequences 
that flowed out of public financing. Here is one of the most 
conspicuous ones. Not only would you get more Lyndon LaRouches 
and more frivolous fringe third, fourth, fifth and sixth 
parties, I think you would get more frivolous primary 
challengers, frankly.
    Mr. Jones, in the context of your district under this 
system, I tell you who I think you would have gotten: Eight or 
nine people running against you saying that you weren't right-
wing enough for their tastes.
    John, even in your district I think under this system what 
you would get is five or six people running against you in 
every primary saying you took a dime from the biggest insurance 
company in your district, proof that even John Larson has sold 
out.
    Ms. Pingree, I think what you would get in your district--
while I have no doubt you will have a very progressive record 
here, what you would get is a number of people saying, look at 
this one contribution from this person, this amendment she 
supported; now we know why, the real story. That is the nature 
of modern politics.
    The reason we don't get more frivolous primary challenges 
is, candidly, they can't raise the money. If they were led to 
believe they could raise the money--because this kind of system 
says to fringe candidates all around America, all you have to 
do is talk to the true believers; all you have to do is talk to 
the committed, find their Web sites, go to their clubs and 
meetings and add them all together, and presto, voila, you have 
got your money coming in now for the Federal Government to 
sustain you. And, frankly, most of them wouldn't care if they 
won.
    Most frivolous candidates for Congress would not want to be 
here. They wouldn't want to catch the plane every few days, and 
they wouldn't want to sit on the floor for 2 hours and cast 
votes. They would rather do talk radio interviews all day. They 
run to get their name out. They run because they love to be 
able to go to a candidates forum and stand up there and say 
whatever they want to say, and for the first time in their life 
someone appears to be listening. I think that is what you would 
get out of the system.
    Here is the other unintended consequence that would flow 
from all these minor challenges. The behavior that would 
emerge, the Members of Congress would think, how do I avoid 
minor primary challengers? Let me just vote with the base of my 
party all of the time. So all of a sudden the Walter Jones of 
the world would become very infrequent, and you already are on 
your side. A Republican would say, How do I avoid a minor 
primary challenger? I will just vote with my base all of the 
time. A Democrat would say, How do I avoid a minor primary 
challenge? I will just vote with my base all of the time. And 
so what you would get is more and more Members of Congress 
feeling that they had to hew to an ideological line, and I 
don't think you would get better public policy, I think you 
would get an even more sharply split political system than we 
have today.
    I agree, frankly, with Mr. Lungren's observation. The big 
corporate interests in this country, here is how they would 
adjust to this system. All of the money that they would save 
from not having to make contributions to congressional 
candidates and Members of Congress, they would not contribute 
that money to charity. They would turn around and dump it into 
independent expenditures, and you would see only more of what 
we are all going to see in this next 30 days: Every interest 
group in the country that has a stake in the health-care debate 
running independent ads in our districts saying here is why you 
should vote for or against this bill. They would not inject the 
money into the system, they would redirect it into other forms 
of expenditures.
    That is my 2 cents' worth.
    The Chairman. I thank the gentleman, and I thank every one 
of you for spending the morning with us. We appreciate it.
    Mr. Larson. Mr. Brady, might we thank your staff, 
especially Jamie Fleet and Tom, but we want to thank all of 
them. We want to give a shout-out to Mary McHugh, who I 
understand had a birthday this week, and tell her that Sister 
Helen Eugenia still is thinking about her.
    The Chairman. Thank you.
    I would like to have the second panel come up to the table.
    I call the committee back to order and recognize our next 
panel of witnesses. I would like to ask unanimous consent for 
Congresswoman Chellie Pingree to make one introduction on a 
witness on the second panel.
    Ms. Pingree of Maine. Thank you very much, Mr. Chairman. 
This is a rare honor. Thank you for allowing for me to testify 
on the first panel.
    To the Chair and Ranking Member and all of the members of 
the committee, it is a pleasure to be here today, and what a 
rare treat to have the chance to introduce my daughter, Hannah 
Pingree, who, as I mentioned before, I hope never runs against 
me in a primary. You will all soon see why.
    Hannah is a resident of the State of Maine. She is from the 
island of North Haven. We live in a community of 350 people. 
She graduated from the smallest high school in the State of 
Maine. The graduating class had five students. That is about as 
small as it comes. She went on to study at Brown University and 
ran for the State legislature at the age of 25. She has served 
in the State legislature for 7 years, and we have term limits. 
She is coming on to her last year. She serves as the speaker of 
the house. Although she may look like she is 12 years old, she 
scares everyone, and people do pretty much in that house what 
they are told.
    I am grateful that she took the time to come down here and 
testify. I asked the Chair if she could serve on the panel 
because she has run under the system, she has recruited 
candidates under a public financing system, and knows the 
pitfalls and challenges and what works well.
    Thank you for allowing me to introduce her, and for her to 
be here today.
    The Chairman. Welcome.
    Also joining her is Jeffrey Garfield, executive director 
and general counsel for the Connecticut State Election 
Enforcement Commission. He has served in that capacity for 
almost 30 years. Mr. Garfield has been active in many 
organizations, including the Council on Governmental Ethics 
Laws, which is the international organization with interests in 
ethics, election, and campaign finance law.
    We have also Bradley Smith, professor of law at Capital 
University School of Law. Prior to that he served for 5 years 
as Commissioner on the Federal Elections Commission.
    Mr. John Samples is the director of Center for 
Representative Government, CATO Institute, which studies 
campaign finance regulation. He is also an adjunct professor at 
Johns Hopkins. Prior to joining CATO, Mr. Samples served 8 
years as director of the Georgetown University Press and was 
vice president of the 20th Century Fund.
    Mr. Arn Pearson is vice president for programs for Common 
Cause organization, where he works with the national and State 
offices helping create model campaign finance legislation. Mr. 
Pearson has a long history in public financing and campaign 
finance reform. He was previously campaign reform director for 
Common Cause.
    Without objection, your written statements will be a part 
of the record. We ask you to summarize your testimony in 5 
minutes or less.
    I will start off by having the speaker of the house, the 
Honorable Hannah Pingree. Your mom introduced you in a way that 
none of us up here would be able to do, especially the 12-year-
old part.

  STATEMENTS OF HANNAH PINGREE, SPEAKER OF THE MAINE HOUSE OF 
   REPRESENTATIVES; JEFFREY GARFIELD, EXECUTIVE DIRECTOR AND 
   GENERAL COUNSEL, CONNECTICUT STATE ELECTIONS ENFORCEMENT 
COMMISSION; BRADLEY SMITH, PROFESSOR OF LAW, CAPITAL UNIVERSITY 
       SCHOOL OF LAW; JOHN SAMPLES, DIRECTOR, CENTER FOR 
  REPRESENTATIVE GOVERNMENT, CATO INSTITUTE; AND ARN PEARSON, 
           VICE PRESIDENT FOR PROGRAMS, COMMON CAUSE

                  STATEMENT OF HANNAH PINGREE

    Ms. Pingree. Thank you, Chairman Brady, Ranking Member 
Lungren and members of the committee. I am Hannah Pingree, 
Speaker of the Maine House of Representatives. Thank you for 
the opportunity to be here today to share with you my 
experiences with the Maine clean elections system as you 
consider H.R. 1826 and the public financing of congressional 
campaigns.
    I am here to express my strong support for Maine's clean 
election system and tell you a little about my experience with 
public financing as both a candidate and as a legislative 
leader. In many ways public financing has changed the face of 
Maine politics. Public financing has encouraged many 
nontraditional candidates to run, from young people and women 
to working people and single mothers, because they don't have 
to have networks and wealthy friends or industry support to be 
successful. Public financing allows candidates, and elected 
officials, to take the time they need to meet voters and serve 
their constituents.
    Most significantly, public financing has created a 
separation between the vast majority of legislators and lobby 
groups. Under the clean election system, most Maine legislators 
don't receive campaign support from lobbyists, allowing 
legislators to weigh issues on their merits and vote freely 
without the fear of losing support in the next campaign.
    In 2002, as you heard from my mom, when I was 25 years old, 
I had the unique experience of being both a first-time 
candidate for the Maine House running under the public 
financing system, and also working as a full-time fundraiser 
for my mother's campaign for U.S. Senate. It opened my eyes to 
the glaring differences between the two worlds. I could conduct 
my house campaign by knocking on doors in the rural towns of my 
island district, attending public functions, and stopping to 
speak with voters along the way.
    On the other hand, my mother was forced to pass up forums 
and cut short conversations so she could get back to the phone 
and dial for dollars. She had to spend the majority of her time 
fundraising to raise the millions of dollars needed to wage a 
TV campaign that a U.S. Senate race requires. That campaign 
cycle for me highlighted what is wrong with our Federal 
campaign system.
    The Maine Clean Elections Act was passed by a wide margin 
of Maine voters in a citizen-initiated referendum in 1996, and 
became available for candidates in 2000. Since that time, 
running clean has become the norm for State house and Senate 
candidates and statewide races.
    In 2000, 33 percent of legislative candidates participated 
in the voluntary system. By 2008, that number had risen to 81 
percent, including the vast majority of candidates in both 
parties. And candidates who accept public financing are 
competitive; 85 percent of the winners in 2008 were publicly 
financed.
    The Maine Clean Elections Act works like this. For a State 
house races, I need to collect $5 contributions from 50 
registered voters in my district in order to qualify for about 
$5,000 to run my campaign in my small district of 8,500 people. 
I can also raise up to $500 in seed money to start my campaign 
in the $100 or less donations. Once I have done this, I cannot 
accept any other donations to my campaign, although a third 
party can still spend money independently.
    If my opponent spends over a certain level, or if a third 
party spends to support or oppose me, the amount of money I 
receive later in the race is adjusted up or down.
    As the Speaker of the House, I am engaged in recruiting 
candidates to run for the legislature, and with 8-year term 
limits, we are constantly recruiting for open seats. I am 
certain that many candidates would not be able to run for 
office without the public financing option. The idea of raising 
funds, even the small amount necessary for a state house 
campaign, is daunting for many people, especially those from 
rural or poor districts.
    As I found out the first time I ran, people were excited to 
support my campaign, and they were thrilled that even with 
modest means, they could help me qualify as a candidate for 
public financing with just a $5 check. Whether it was a senior 
citizen or a hardworking lobsterman, they could participate in 
my campaign, which for many of them was a first. More 
importantly, after I qualified for clean elections, I could 
spend the majority of my time talking to my constituents, 
actually listening to their concerns, without the pressure of 
needing to fundraise or find new donors.
    Because public financing makes the entry process into 
politics more doable, it has become an important tool for 
recruiting. From my limited experience with Federal elections, 
you can contrast Maine's system with Federal recruiting, where 
self-funded candidates are often preferable. You have to 
question a system where great personal wealth can make someone 
more attractive to party groups simply because they won't 
require as much funding help.
    I also believe that policy and process implications for 
Maine's clean elections system have been significant. In my 
time as a legislator, I have watched Maine take on numerous 
issues, from tax reform to health care expansions to 
environmental policies. And despite spending by out-of-State 
industries, we have passed some first-in-the-Nation laws. In 
many other States, passing reforms on these same issues would 
be uphill battles. This doesn't mean our Maine Legislature has 
become more liberal or more conservative under clean elections, 
it means that legislators are more apt to make decisions based 
on a bill's potential impact on their district and less based 
on heavy lobbying or campaign support.
    For example, I sponsored a major chemical reform bill in 
2007 which sought to take a comprehensive look at regulating 
chemicals in consumer products, especially children's products. 
We had a very fierce lobbying effort against the bill in the 
State house and in the media by the chemical and consumer 
products industry. And yet it passed with overwhelming 
bipartisan margins because it was the right policy. It was a 
clear case where the voice of the public was stronger than the 
lobby and their millions of dollars of spending.
    Overall, the Maine Clean Elections Act has been a 
tremendous success. In the five elections since its inception, 
it has allowed candidates the time to focus on their 
constituents rather than contributors, and it has increased the 
diversity of representatives in the legislature, and I believe 
it has allowed Maine legislators the time to focus on the best 
policies for their constituents rather than worrying about 
upsetting the entrenched lobbying interests.
    I urge the committee's support, and I am happy to answer 
your questions later.
    The Chairman. Thank you.
    [The statement of Ms. Pingree follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Garfield.

                 STATEMENT OF JEFFREY GARFIELD

    Mr. Garfield. Chairman Brady, Ranking Member Lungren and 
distinguished members on House Administration, good afternoon. 
My name is Jeffrey Garfield, and I am the executive director 
and general counsel for the Connecticut State Elections 
Enforcement Commission, and I have served in that capacity for 
30 years.
    I am honored to appear before this committee today to 
testify concerning H.R. 1826, sponsored by Connecticut's own 
Congressman Larson; and more particularly to discuss 
Connecticut's positive experience with the implementation of a 
full public financing program for legislative elections in 
2008.
    With me today is Beth Rotman, the director of Connecticut's 
Citizen Election Program, who was an integral part of 
implementing the program.
    I am proud to say that Connecticut was the first State to 
adopt a full public financing program by an act of its 
legislature, combining it with complete bans on contributions 
by lobbyists and State contractors. Connecticut's comprehensive 
reform would not have occurred but for strong bipartisan 
leadership and courage of our Governor M. Jodi Rell and 
legislative leaders.
    Connecticut's voluntary Citizen Election Program has 
several features akin to H.R. 1826. To establish eligibility 
for a public grant, a candidate must meet a two-part threshold 
by raising qualifying contributions between $5 and $100 from 
individual donors. There is an aggregate dollar contribution 
requirement, and an in-district requirement for legislative 
candidates and an instate requirement for statewide candidates. 
All of these qualifying contributions must come from 
individuals; no PAC, no entity contributions are permitted. I 
have provided a detailed overview of Connecticut's program as 
part of my written testimony, and I ask that it be made part of 
the record.
    The Chairman. Without objection.
    Mr. Garfield. Connecticut's campaign finance reform was 
brought about by scandals involving several elected officials, 
including our Governor, who resigned from office under threat 
of impeachment and served a year in prison for public 
corruption. According to the polls at the time, Connecticut 
citizens' confidence in their government and elected officials 
were virtually eradicated. Campaign finance reform was the 
cornerstone of the reforms aimed at restoring that confidence. 
Connecticut's public campaign financing program was an 
unqualified success in the first run for the 2008 legislative 
elections.
    For the reform to be successful, participation in it by 
candidates must be incentivized. Our participation rate was an 
extraordinary 75 percent of all State legislative candidates. 
Moreover, approximately 78 percent of the current legislature 
ran under the program. By comparison, Maine and Arizona in 
their first runs had participation rates of one-third and one-
quarter respectively.
    Special-interest money was virtually eliminated from the 
2008 State legislative campaigns. Ninety-seven percent of all 
contributions raised by candidates were from individuals. In 
eliminating virtually all special-interest money from 
campaigns, Connecticut has addressed the concern that its 
political culture fostered actual or perceived conflicts of 
interest. By comparison, in the 2006 legislative elections, 
candidates received approximately one-half of the money, of the 
$9.3 million raised from PAC's entities and lobbyists.
    The high participation rate of legislative candidates 
resulted in most contributions derived from small individual 
donors and the remaining nonparticipating candidates received 
approximately $60,000 from PACs. Candidates believe that the 
CEP reduced the appearance of special-interest influence. 
Sixty-six percent of the candidates in the 2008 legislative 
elections found that public financing reduced even the 
appearance that a candidate would be beholden to large donors 
or special interests.
    The availability of public funds encouraged new candidates 
to join the electoral process in 2008. Approximately 78 percent 
of first-time candidates in the 2008 legislative elections 
indicated that the availability of a public campaign grant was 
an important factor in their decision to run for office.
    One such candidate, Karen Houghtaling, is a 41-year-old 
grandmother holding two jobs as a receptionist and a waitress, 
who nearly upset a three-term incumbent in a Democratic 
primary. Ms. Houghtaling said, ``What I can tell you is this: I 
would not have run for State representative this past August 
were it not for the new Citizen Election Program. I might have 
been a new kid on the block when it comes to running for public 
office, but I knew I could never be competitive in a system 
where someone was essentially encouraged to rely on big 
private-money contributions.''
    The program encouraged electoral competition. There was an 
increase of primaries under the CEP. While the number of 
unopposed races was not diminished in the first year under the 
program, challengers fared better under the program in 2008 
than they did without it in 2006. All successful challengers 
participated in the program. Moreover, there were closer races 
in 2008 than in 2006. The program freed candidates from 
spending too much time fundraising, affording more candidates 
greater opportunity to communicate with constituents, and gave 
value to small $5 contributions.
    Cicero Booker, an African American and third-party 
candidate who ran for the State senate under the program, said 
he was happy that even disadvantaged people in his community 
could get involved and know that even their $5 donation was 
significant. Many people in the district had never donated to a 
political committee. Candidates were satisfied that they did 
not have to spend endless time having fundraisers.
    Matthew Lesser, a first-time candidate, who at age 25 upset 
a long-term incumbent, stated, ``I believe that having a chance 
to meet so many of my constituents will make me a better 
legislator. The result of public financing is a more in touch, 
more competitive, and more independent legislature which finds 
itself accountable to our voters, and to the voters alone.''
    The number of female candidates in 2008 was 102, more than 
any other previous year. The percentage of women in the State 
legislature is now a record, almost 32 percent.
    Why did the Connecticut program succeed? Because the law 
incentivizes participation by providing candidates with 
generous grants with which to wage effective campaigns. 
Eligibility for public grants are also set at reasonable 
thresholds of support, while both incumbents and challengers 
alike are able to qualify for public grants. In fact, 93 
percent of all participating candidates receive grants.
    Let me close by saying this. In its inaugural year, the 
Citizen Election Program earned the respect and praise of 
candidates who opted to participate. We hope that Connecticut's 
experience is one that this committee will closely consider as 
you move ahead.
    One story I would like to share in closing by Democratic 
State Representative Chris Caruso, who said, ``Some people 
think that it is impossible to blunt the influence of lobbyists 
and big donors, but that is exactly what happened here in 
Connecticut this year. For many years environmentalists have 
tried to expand the bottle bill recycling program to include 5 
cent deposits on plastic water bottles. But the powerful 
beverage industry and paid lobbyists were able to stop every 
effort at reform because they gave thousands of dollars to 
legislators. This year, the legislature voted to expand the 
bottle bill. We voted to reclaim millions of dollars' worth of 
unclaimed bottle deposits, which take approximately $25 million 
a year out of the pockets of the beverage industry and puts 
that money into the general fund where it belongs. This alone 
recoups more money than the Citizens' Election Program costs. 
This is just the beginning.''
    Thank you very much. I will be happy to answer any 
questions you have later on.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Garfield follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    [The information follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Smith.

                   STATEMENT OF BRADLEY SMITH

    Mr. Smith. Thank you, Mr. Chairman and Ranking Member 
Lungren. I should note as well that I am testifying on behalf 
of the Center for Competitive Politics, which is an 
organization I founded in 2005 after I left the Federal 
Election Commission. I want to thank you for inviting me to be 
here.
    I don't like fundraising either. I hate it. After this 
meeting, I am going to go back to a lonely room and make phone 
calls to raise money. That is what we do in the nonprofit 
world. We don't like it. So if you want to give me $3.3 million 
in matching funds at a four-to-one match, I would be very, very 
grateful. We all have things in our jobs that we don't like and 
that we need to deal with.
    My question when it comes to this issue becomes one of: 
Where is the beef? We are all old enough to remember that 
saying.
    We have heard repeatedly how good this is working. It is an 
unqualified success. It has been so successful. Really? I mean, 
we have heard some bad things about California today, but at 
least you are not selling off your State capitol like Arizona 
is; right? Where is the success in Arizona? They have the 
second biggest budget deficit as a percentage of the total 
budget of any State in the country, and this week they are 
auctioning off their capitol.
    Where is the success in Maine? When I was a young man, I 
used to go canoeing on the lakes and rivers of Maine. It is a 
beautiful State, but despite all of that physical beauty, it is 
one of the highest States in the Nation in terms of the 
percentage of residents who are leaving the State.
    Where is the evidence that suddenly these States are better 
governed and better run than other States that exist; States 
such as Utah or Virginia, which have unlimited corporate 
contributions, and are rated by Governing Magazine as the two 
best-governed States in the country? Where is the beef?
    I think when we begin to get past the sort of platitudes--
and we heard a couple of stories about legislation that 
legislators who favored were glad passed. I am sure that 
legislators who opposed that might say that the old system was 
better for the State. So where is the actual evidence in terms 
of what is helping the residents and that is improving their 
lives?
    If we look realistically at campaign financing, taxpayer 
financing, it has consistently failed to deliver what it 
promises to do. For example, it does not save governments 
money. Both Arizona and Maine in the 8 years before they had 
public financing, or what they call clean elections of 
campaigns, had spending rates that were below the national 
average in growth. And in the 8 years since they have had 
government financing of campaigns, their spending rates have 
gone above the national average in the rate of growth. So it 
doesn't look to me like we are really saving a bunch of money. 
Just off the top, we don't even have a correlation there.
    Let us talk about things like the question of influence of 
the wealthy, another one of the stated goals of this program, 
right? Well, one of the things that we know, and it has been 
noted repeatedly, is that there are other ways for people to 
participate, through 527s and independent expenditures and so 
on. But there are yet other ways. For example, I note that one 
person who has been promoting this is Steven Kirsch. Now, 
Steven Kirsch gives away millions of dollars a year in various 
political causes, maybe not directly into races, but it is not 
like it is going to kill his influence. If anything, I think it 
will give him as much or more influence.
    The founders of Ben & Jerry's, they are on board. Well, 
they have been giving away for years 5 percent, or whatever it 
is, of the company's profit to various political causes that 
they believe in. Their influence is not going to be dropped 
down.
    We had Sam Waterston up here the other day. He can come up 
here and he can speak on anything that he wants. He would draw 
an audience. He is Sam Waterston. Me or some ordinary citizen 
schlepping around back in Granville, Ohio, where I come from, 
he can't come here and get an audience, right? He may know as 
much or more about it as Sam Waterston. Sam Waterston's 
influence is not going to be tailed off here, and my guess is 
that he is among the wealthy Americans.
    It is suggested that we want to build confidence in 
government. There actually is data on this. These are things 
that have been studied, and it doesn't happen. There is polling 
data. There are studies by Jeffrey Milyo at the University of 
Missouri; David Primo at Rochester University; Beth Rosensen 
and Nate Persily at the University of Pennsylvania that doesn't 
show that campaign finance regulation of this type, or public 
financing, create a better view of the legislature. In fact, 
public financing, in Milyo's research, has been shown to 
actually lead to lower opinions of the legislature, and there 
may be reasons for that.
    For example, one of the things we see is that it opens new 
elements of corruption. If you have a four-to-one match, it is 
like a money-making machine. I get my friends to each give me 
100 bucks. I have three of them. They each give me 100 bucks, 
and I get another 1,200 bucks from the government. I have got 
1,500 bucks. I give them a $1,000 contract. I got a few hundred 
bucks for my campaign, I don't really care about winning, and 
we all come out ahead.
    I didn't bring a copy today, but with permission, I would 
like to offer for the record an article from the Phoenix New 
Times from April 2, 2009, which explains some of these episodes 
of corruption in the Arizona program.
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Smith. Seeing that my time is up, I won't go further 
other than to say I will be happy to answer questions.
    The Chairman. Thank you.
    [The statement of Mr. Smith follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Samples.

                   STATEMENT OF JOHN SAMPLES

    Mr. Samples. Thank you, Mr. Chairman and Ranking Member 
Lungren. I appreciate the opportunity to come here and testify 
on behalf of the CATO Institute in regard to this bill.
    I begin my analysis, as you can see from my testimony, with 
the source of funding for the bill. And it is somewhat 
complicated, but as I argue it, the ultimate source is the 
taxpayer, or voluntary contributions, which hasn't worked out 
well with the Presidential system.
    But it is also difficult to find out what the source of 
funding for this bill is, and I wonder why that is the case. 
That is to say, why, if all of the things that are promised for 
this bill are so good, and they benefit democracy, and the 
words ``undermine democracy'' and ``build up democracy'' are 
used, if those are true, why not simply say to people, look, we 
are going to do this great thing for democracy, and we are 
going to tax you for it? Why obscure the sources of the 
taxation?
    I think the reason is pretty clear: The public historically 
and down to this moment does not support public financing of 
campaigns. They support something called campaign finance 
reform by 60/40 numbers. They oppose, generally speaking, and 
have historically, public financing by the same numbers.
    I think they do so for a number of reasons. One is that, in 
fact, they understand that this kind of program compels 
taxpayers to support candidates that they would not otherwise 
support or that they are indifferent to. This goes to the 
question of whether or not the system is voluntary. That has 
been hashed out a little bit already. It is clear that it is 
not voluntary for taxpayers. Why is that important? It is 
important because what you are doing here is forcing people to 
support political candidates and causes they don't want to 
support. It is more like forcing someone to confess a religion 
than it is like forcing someone to pay for a road. This is 
fundamentally different than the normal sort of politics. It 
goes to questions of conscience, not just questions of money 
being paid for some other kind of public good or something like 
that.
    We also have to raise the question, given the lack of 
public support, why are we spending this extra money, and what 
would your constituents think of that at a time of 
unprecedented deficits?
    It says it will save money. I don't believe that. Many 
people here today have said campaign contributions have little 
influence over their votes. I believe that. Many people don't. 
I do. The reason I believe that is because I have read the 
studies that have been done over time about the influence of 
contributions that show they come in second behind party 
ideology and so on.
    Public confidence, Professor Smith has laid that out for 
you. In fact, the campaign finance system doesn't really have 
any effect on public confidence. Public confidence in 
government has been going down over time, but it is not because 
of the campaign finance system.
    Let me go to something that I think is very important for 
Members, which is the unusual points about this legislation. 
Generally speaking, when you have public financing legislation, 
something is done, something bad, to people who don't 
participate in the system. Sometimes they are forced to pay the 
public money or whatever. In this case nothing bad is done to 
nonparticipating candidates at this point. Their contributions 
limits are not lowered. There is nothing done to make their 
life harder.
    Given that, all things being equal, I would expect that 
this will, in fact, lead to more challengers. In particular, I 
don't think it will lead to more challengers in marginal 
districts. In marginal districts, those will be so hard fought 
over that everybody will defect. Everybody will be raising 
private money, I would expect. However, I expect in the 55 to 
65 percent range, that is where you won your last election 55 
to 65, I think that you will see many more challengers than you 
would otherwise in this undertaking.
    Mr. Samples. So it would expect that that is what you will 
see. I would say, however, that those candidates in those 
districts would be expected to raise more money than they do 
now to try to restore the gap that previously existed before 
this legislation was passed. So it is not the case that if you 
are in a 55-65 district that you won last time, that you can 
expect to do less fundraising. You are going to have to do 
more, or you are going to have to live with the fact the gap no 
longer exists.
    Finally, on the question of fundraising, since that does 
seem to be a major concern for many Members, I would say there 
is an alternative to you, which is twofold. One is to raise the 
party limits, or get rid of them, so your party can help you. 
Remember, that was the effect of McCain-Feingold. The only 
thing that is going to stand out of that was prohibiting party 
leaders from raising soft money to help you with your 
campaigns. And, second, raise contribution limits.
    The reason you have to raise so much money now and spend so 
much time is because the limits are so low. They are still 
lower than they were in 1974, when you take inflation into 
account. That is easier than doing this, which public 
confidence, your constituent confidence in you, if you do this 
and force them to support people they don't want to support, is 
going to be pretty low.
    Thank you very much.
    The Chairman. Thank you.
    [The statement of Mr. Samples follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Pearson, we have an arrangement for you. 
We don't make deals, we make arrangements. If you can get your 
testimony done in 5 minutes, we will have questions submitted 
to all of you on the record, and you can submit them back to us 
instead of having to stay here for another hour and a half 
before we come back to vote and then answer questions for 
another hour and a half.
    So if you can get it in in 5 minutes, we will submit 
questions for the record and have you get back to us in 
writing.
    Mr. Pearson, it is your choice. You are on.

                    STATEMENT OF ARN PEARSON

    Mr. Pearson. Five minutes. Mr. Chairman, Mr. Lungren, 
members of the committee, thank you for this opportunity to 
testify. My name is Arn Pearson. I am vice president for 
programs at Common Cause. For almost 40 years, Common Cause has 
worked as a nonpartisan voice for reforms that make the 
government more open, honest and accountable to the American 
people, and, in the wake of the Watergate scandal, we were one 
of the leading voices in crafting the Federal Election Campaign 
Act, which is the system that you all have worked under for the 
last generation. But times have changed, and that system is in 
bad need of an upgrade.
    I would say that the answer is not to go back to the six-
figure campaign contributions and slush funds of the 1960s and 
1970s, but to move ahead for a new system for the 21st century 
that restores the quality of campaigns, gives you more time to 
do the job you are supposed to do, and restores public 
confidence in the integrity of Congress.
    Let us face it, these are hard times for Congress. Your job 
is not an easy one. The problems facing America are extremely 
difficult. Yet you are expected to spend more than a quarter of 
your time fundraising, often from those who have a direct 
financial stake in what you do.
    There is a steady drumbeat of pay-to-play scandals and 
daily stories about the conflicts of interest in the current 
system, and it is no wonder that public confidence in 
government is at an all-time low.
    We did a poll in February and found 79 percent of people 
were concerned that large campaign contributions would be an 
obstacle to progress and would keep you from tackling the big 
issues that face this country, like energy, health care, and 
the financial crisis.
    A poll by Pew done in 2006 found that 81 percent of people 
believed that lobbyists bribing Members of Congress is 
commonplace. These cynical public sentiments do a profound 
disservice to good people who go into the public life, and 
undermine public confidence in the core institutions of 
American democracy.
    I doubt this is what you had in mind when you decided to 
run for Congress, and certainly the people did not send Mr. 
Smith to Washington to raise money. They expect more and 
deserve more, and so do you. This current system is a mess. I 
think everybody has pretty much described the problem.
    I want to paraphrase our founder, John Gardner, who said 
that opportunities are often disguised as insoluble problems. 
There is a way out of the current mess. There is a better way 
to design a system. And you have before you a bill that will do 
that.
    The Fair Elections Now Act offers a promising, effective 
and voluntary alternative to the current mess. It is based on 
the best experiences in a number of States, as well as lessons 
learned in the 2008 elections and the rise of the role of small 
donors. It provides a new system for a new generation of 
candidates based on a blend of small-donor democracy and 
limited public funds.
    This is not a partisan issue. I realize the Minority has 
chosen a couple of people to speak here who are opposed to 
this. But if you look around the country, there are literally 
hundreds of candidates for statewide legislative and judicial 
offices from both parties who have used this system and who 
think very highly of it. We now have solid majorities of the 
legislatures and statewide offices in Maine, Connecticut, 
Arizona, and North Carolina who have used this system and think 
very highly of it.
    I have spent the last 12 years working to implement and 
refine these types of systems and have worked with a number of 
States and now Congress to tailor programs that work. And I 
want to just say this is not a one-size-fits-all proposition. 
These are pragmatic programs tailored to the realities of the 
campaigns for different public offices and jurisdictions. They 
are not a panacea. They do not solve all problems, but 
everybody here has laid out some very concrete problems that 
can be addressed, and we can create significant improvements in 
our democracy.
    I would urge you to take ownership of this bill and work 
together to craft the specifics so that this works for 
Congress.
    In the States, both candidates and voters have given these 
systems very high marks. I won't go through all the polling 
numbers. They are in my testimony. The reforms are on solid 
constitutional ground.
    In closing, I would just say that there has been a lot of 
reference to problems with the current regulatory system and 
independent spending. The fact of the matter is that the 
current Court has made it very difficult to do much about 
spending. It is unconstitutional to limit spending.
    What this bill does is, instead of taking a regulatory 
approach to try and clamp down in one place only to see it pop 
up somewhere else, it creates an alternative floor for folks to 
run under that provides resources for vigorous campaigns 
without having to rely on wealthy special interests.
    Thank you very much.
    The Chairman. Thank you.
    [The statement of Mr. Pearson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. I would like to recognize the Ranking Member.
    Mr. Lungren. Mr. Chairman, I just wanted to explain we have 
13 votes called on the floor; we have a motion to recommit, 
discussion on that, which means we won't be back here for a 
long time. So, in consultation with the Chairman, we agreed 
that rather than try and hold you back here and see when we 
could come back, if we could submit questions to you, and you 
answer.
    [The information follows:]




    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lungren. I thank you, Mr. Chairman. Maybe we can have 
another panel and have President McCain and Senator Obama 
testify as to how well the public funding worked.
    The Chairman. I thank the panel again.
    Madam Speaker, will you please tell your Governor that I 
said hello. He was my roommate when he was here.
    This hearing is adjourned.
    [Whereupon, at 1:07 p.m., the committee was adjourned.]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
